HHS/OIG, Audit -"Audit of Medicare Cost Reports and Duplicate Payments
for Welborn Health Plans for the Fiscal Years 1999 Through 2001 - Welborn Health
Plans, Inc., Evansville, Indiana,"(A-05-02-00067)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicare Cost Reports and Duplicate Payments for Welborn Health
Plans for the Fiscal Years 1999 Through 2001 - Welborn Health Plans, Inc.,
Evansville, Indiana," (A-05-02-00067)
June 19, 2003
Complete Text
of Report is available in PDF format (373 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this audit were to determine whether $35,378,132 in costs
claimed by Welborn Health Plans, Inc. (Welborn) on its Medicare cost reports
were reasonable, allowable and allocable; in accordance with Medicare provider
reimbursement principles and guidelines; and whether payments for provider
services claimed on Welborn’s cost reports were also reimbursed under the Medicare
fee-for-service payment system.  We consider all costs, except the $700
claimed for an unallowable and unallocable retirement party, to be reasonable,
allowable, and allocable.  We also determined that the Medicare program
improperly paid $96,923 in fee-for-service claims submitted by two of Welborn’s
providers that were already reimbursed for these services through capitated
payments. Welborn claimed the capitated payments on its Medicare cost reports.  We
attribute the duplicate payments to Welborn’s failure to establish required
internal controls to detect the Medicare fee-for service billings by their
providers.